No. 20-1472
IN THE

*upreme Court of tije liutteb *tato
BOECHLER, P.C.,
Petitioner,
V.

COMMISSIONER OF INTERNAL REVENUE,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eighth Circuit
BRIEF OF THE FEDERAL TAX CLINIC AT
CHARLES WIDGER SCHOOL OF LAW AND
THE SETON HALL CENTER FOR SOCIAL
JUSTICE IMPACT LITIGATION CLINIC AS
AMICI CURIAE IN SUPPORT OF PETITIONER
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the Brief of
the Federal Tax Clinic at Charles Widger School of Law and The Seton Hall Center
for Social Justice Impact Litigation Clinic as Amici Curiae in Support of Petitioner
in Boechler, P.C. v. Commissioner of Internal Revenue, No. 20-1472, complies with
the word limitations, as it contains 3,447 words.
I declare under penalty of perjury that the foregoing is true and correct.

Shay Dvoretzky
Date: May 21, 2021

